No. 19A
_________
IN THE SUPREME COURT OF THE UNITED STATES
JAMES BAILEY-SNYDER,
APPLICANT,
—————
V.

UNITED STATES,
Respondent.
—————
DANIEL M. GREENFIELD
Counsel of Record
RODERICK & SOLANGE
MACARTHUR JUSTICE CENTER
375 East Chicago Avenue
Chicago, IL 60611
(312) 503-8538
daniel-greenfield@law.northwestern.edu
Attorney for Applicant
James Bailey-Snyder

September 25, 2019

IN THE SUPREME COURT OF THE UNITED STATES
_________
JAMES BAILEY-SNYDER,
Applicant,
v.
UNITED STATES,
Respondent.
________
APPLICATION FOR AN EXTENSION OF TIME
WITHIN WHICH TO FILE A PETITION FOR A WRIT OF CERTIORARI
________
To the Honorable Samuel Alito, Associate Justice of the United States and
Circuit Justice for the Third Circuit:
Pursuant to Supreme Court Rules 13.5, 22, and 30.3, Applicant James
Bailey-Snyder respectfully requests a 60-day extension of time to file a petition for a
writ of certiorari to review the judgment of the U.S. Court of Appeals for the Third
Circuit in this case, to December 7, 2019. Mr. Bailey-Snyder has not previously
sought an extension of time from this Court.
As discussed herein, this case raises an important federal question that the
Court has yet to answer: whether imposing solitary confinement pending criminal
investigation triggers the right to a speedy trial under the Sixth Amendment or the
Speedy Trial Act, 18 U.S.C. § 3161(b).
In support if this request, Applicant states as follows:
1.

The Third Circuit issued its opinion on May 3, 2019. See United States

v. Bailey-Snyder, 923 F.3d 289 (3d Cir. 2019) (attached hereto as Exhibit A). On
July 10, 2019, Mr. Bailey-Snyder’s timely petition for rehearing en banc was denied.
1

See United States v. Bailey-Snyder, 923 F.3d 289 (3d Cir. 2019) (en banc denied
July 10, 2019) (attached hereto as Exhibit B). As such, the time for filing a petition
would expire on October 8, 2019, absent an extension. Consistent with Rule 13.5,
this application has been filed at least 10 days before that date. This Court has
jurisdiction over this case under 28 U.S.C. § 1254(1).
2.

On August 10, 2015, while incarcerated at the Federal Correctional

Institution, Schuylkill, correctional officers searched Mr. Bailey-Snyder and found a
homemade plastic weapon. Pending criminal investigation by the FBI, Mr. BaileySnyder was transferred to solitary confinement. In February 2016, Mr. BaileySnyder was interviewed by the FBI and provided a “target” letter. And in June
2016, Federal prosecutors filed criminal charges against Mr. Bailey-Snyder in
connection with the seized plastic weapon. He remained in solitary confinement
throughout this ten-month period.
3.

Subsequently, Mr. Bailey-Snyder moved to dismiss the indictment,

arguing that his solitary confinement constituted a dramatic further restriction of
liberty triggering his speedy trial rights. The district court denied the motion and
Mr. Bailey-Snyder was tried before a jury, which convicted him. The district court
sentenced Mr. Bailey-Snyder to a 30-month term to run consecutively to his original
criminal sentence.
4.

On appeal to the Third Circuit, Mr. Bailey-Snyder pressed his speedy

trial arguments. The Third Circuit affirmed, holding as a matter of first impression
in that circuit that solitary confinement imposed pending investigation does not

2

trigger constitutional or statutory speedy trial rights. Because Mr. Bailey-Snyder
was imprisoned, “where the curtailment of liberty is the general rule,” when solitary
confinement was imposed, the court reasoned that any additional restrictions on
liberty did not implicate speedy trial rights.
5.

Mr. Bailey-Snyder intends to file a petition for certiorari presenting

the question whether imposing solitary confinement pursuant to an investigation—
which amounts to a dramatic additional restriction on liberty—triggers
constitutional and statutory speedy trial rights. That question satisfies the criterion
for certiorari: it concerns a fundamental issue of federal law the Court has yet to
address.
6.

Mr. Bailey-Snyder respectfully requests additional time to file his

petition for certiorari for two reasons.
7.

First, Counsel of Record, Daniel Greenfield, did not represent Mr.

Bailey-Snyder before the district court or court of appeals and therefore requires
additional time to evaluate the record developed below, several volumes of which
are sealed.
8.

Second, Mr. Greenfield has numerous pre-existing professional

obligations, in addition to undersigned counsel’s teaching responsibilities at
Northwestern Pritzker School of Law, which would prevent him from developing the
sort of comprehensive analysis that would aid this Court in determining whether to
grant certiorari. These commitments include:
•

An amicus brief in Heyer v. Federal Bureau of Prisons, No. 19-7027
(4th Cir.) due October 7, 2019;
3

9.

•

A petition for rehearing in Hamner v. Burls, No. 18-2181 (8th Cir.) due
October 16, 2019;

•

An oral argument in Porter v. Wetzel, No. 18-3505 (3d Cir.) on October
22, 2019;

•

An oral argument in Greenhill v. Clarke, No. 18-7300 (4th Cir.) on
October 31, 2019;

•

A reply brief in Johnson v. Prentice, No. 18-3535 (7th Cir.) due
November 13, 2019;

•

An opening brief in Johnson v. Pa. Dep’t of Corr., No. 18-3505 (3d Cir.)
due November 14, 2019;

•

An amicus brief in Ajaj v. Federal Bureau of Prisons, No. 19-1250 (10th
Cir.) due November 15, 2019;

•

An opening brief in Chavez v. Peters, No. 18-35244 (9th Cir.) due
November 21, 2019;

•

An opening brief in DePaola v. Clarke, No. 19-7199 (4th Cir.) due
December 2, 2019;
For these reasons, Mr. Bailey-Snyder respectfully requests that the

time to file a petition for a writ of certiorari be extended to and including December
7, 2019.

4

Respectfully submitted,
s/ Daniel M. Greenfield_________
DANIEL M. GREENFIELD
Counsel of Record
RODERICK & SOLANGE
MACARTHUR JUSTICE CENTER
375 East Chicago Avenue
Chicago, IL 60611
(312) 503-8538
daniel-greenfield@law.northwestern.edu
Attorney for Applicant
James Bailey-Snyder

September 25, 2019

5

